                        WORKING TOWARD JOBS


                                  The Florida

                         Project Independence Program




     f.RVICESO
                 (JJ'




'0



      d:m


OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS
                                                        MAY 1990
                           The Florida

                  Project Independence Program




                         Richard P. Kusserow
                          INSPECTOR GENERAL




OEI-12-89-01323                                  MAY 1990

                                 . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .
                           ..................................                                                             . . . . . . . . . . . . ..
                                                                                              . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .




INTRODUCTION


PROGRAM PROFILE.                                                                                                                 . . . . . . . . . . . 2


           THE STATE OF FLORIDA                                                                                                                       . . . 2


           THE FLORIDA AFDC PROGRAM.                                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


           THE FLORIDA AFDC WORK PROGRAM                                                     . . . . . . . . . . . . . . . . . . . . . . . . . 2


                   General Background. . 

                   Administrative Issues                                                                                                                   . 3



                   Participation Issues. . . 

                   Program Activities                                                                                                                 . . . 7


Appendix A
           OVERVIEW STATEMENT.                                                                                                                        A-

Appendix B

     SAMPLE DOCUMENTS                                     I' D I I . . . . I . D . . . I . . . I 10 . . . . D g D . . . I                     I . . I B­
                            ~~~~                                                                      ::::::::                                                                :::::::::::::    ...
                                                                                                                                                                                              .:.:.:.:.
                                                                                                                                                                                              :.:.:.:.:
                                                                                                                                                                                              '::::::;:




          This technical report is par of a series of
          profies on the Aid to Families with                                                                                         Dependent
          Childrn (AFC) work                                                                programs parcipating
          in the              Working Toward JOBS 
                                                                 project.

          Each profie begins with a categorized
          descrption of the subject AFC work program,
          which is based on mail guides submitted by the
          progr. Appendi A includes an overview
          statement wrtten by the program manager. It
          descrbes the program, its goals, philosophy and
          lessons leared.   Appendix B is a sample of
          documents used to conduct the program. Each
          program admnistrtor was asked to submit
          sample documents which they felt would be
          useful to States and counties developing)OBS
          progrs.
          Data collection for this study was done from
          Apri to September of 1989. The information in
          the overview and technical reports is based on
          pre- JOBS work programs for AFC recipients.
          As these progrs have converted to JOBS,
          they may have made some changes to meet
          JOBS legal and regulatory requirements.
          Where possible, we have noted the changes the
          progr administrators anticipated at the time
          of our data collection.




                                               ::::\\:\:\:II:::::\:::::::\:t::::::::t:::::::::::1::i:::::::;:::::i:::::::::t::::::::::::::::\I:::::::::::I:::::::::::::::::::::::::
                               \::i::::::::::::::\:
           I::::::::::::\::::::::




Florida                                                                                                                   INTRODUCTION
THE STATE OF FLORIDA

              Population: 12,417, 606
              Main industres: service , retail trade, Government, manufacturing
              First quarer 1989 unemployment rate: 5.3 percent
              Median income for a family of four: $35, 247

THE FLORIDA AFDC PROGRAM

              For Fiscal Year 1988:

              Total cost: $321 988, 528

              Federal shar: $178, 946, 367; State share: $143, 042 161

              AFC cases: 108,936

              Case closures in FY 1988: 74 382

              Approximately 22 000 of those had parcipated in work program





THE FLORIDA AFDC WORK PROGRAM


General Background

Name:         Project Independence

Operating Since:         October 1 ,   1987

Philosophy:         The program s objectives are to: 1) provide screening services to
              parcipants to determe job readiess, 2) to increase trning and educational
              opportnities through human services staff, Job Training Parership Act (JTPA)
              and local educational agencies for paricipants with education and work skil
              deficiencies, and 3) to increase the number of public assistance recipients entering
              employment. The specifc program goals for the State Fiscal Year 1988 are
              30, 000 job placements: 22 000 from AFC recipients (80 percent to be full-time)
              and 8,000 from Food Stamp recipients.




Florida                                          PROGRAM PROFILE
Program Administrator:
      James Clark
      Director, Project Independence
       1317 Winewood Boulevard
      Building 5, Room 115
      Tallahassee, FL 32399- 0700
       (904) 487- 2380

Administrative Issues

Structure:      Project Independence is a statewide welfare to work program. It is a
             cooperative effort by the State Deparents of Health and Rehabiltative Services
             (HRS), Education , and Labor and Employment Securty, with the JTPA and a
             public/private parership with Florida s business and industr.

             The HRS delivers services under the authority of the Deputy Secretar for
             Operations to whom the 11 distrct administrators report. Each distrct office   has
             one staf person designated as the Project Independence manager.

             The State determnes program policy, guidelines and goals.      Within those
             centrlly determned parameters the State s 11 distrcts develop implementation
             plans. The central State welfare offce monitors the implementation of these
             plans to ensure that they meet Federal and State requirements.

Funding:        Fundig levels in State Fiscal Year 1987- 1988 were as follows.
                                          Federal               State               TOTAL

             Program Activities          $7, 525, 106        $6, 912 753          $14,437 859

             Supportive Services         $2,459, 387            704 755             $5, 164 142

             TOTAL                       $9, 984,493         $9, 617, 508         $19, 602 001



Staff:       There are 334 HRS counselors and supervisors whose responsibilties include:
              case management, support services brokering, job development, job club,
              employabilty plan development, and education agencies liaison. The HRS also
              has 120 clerical and dirct services aides who assist the counselors and
              supervisors. There are 59 contracted staff from the Florida Deparment of Labor




 Florida                                      PROGRAM PROFILE
                 who ar  responsible for job development, job placement, and job club. All of the
                 above staf work full-time on Prject Independence.

Success Measurements: 
          Florida measures the success of Project Independence through
                 number of placements and job retention.

Recordkeeping:             On Januar 2, 1990, a new management information system became
                 operational, enabling not only headquarers but also the distrcts and individual
                 Project Independence units to have access to more detailed client trcking and
                 record keeping informtion. Client information is entered directly into the
                 computer at the caseworker level and has some interface capabilties with the
                 AFC information system. This new system increases ad hoc report generatig
                 capabilties and the tyes of data dictly available to the distrct and unit.


Provision of Services: 
         The individual distrcts, in consultation with headquarers Project
                 Independence sta, determne the optium service delivery design for their
                 respective geogrphic aras. All distrcts rely maily on HRS field staff to deliver
                 servces. Many use some Job Service staf as contracted with the Deparment
                 Labor and Employment Securty. One distrct contrcts with a community
                 college to provide Project Independence services in aru,     four county area.

Outside Resources: 
           Cooperative agreements were signed by the Governor and the
                 Commssioner of Education and by HRS with the Deparent of Labor and
                 Employment Securty (DLES) and the Deparent of Education on a statewide
                 basis. Workig agrements have been developed at the local level between HRS
                 distrcts, school boards, community colleges, and ITPA Prvate Industr Councils.


                 Prject Independence also contrcts with DLES to provide job placement, job
                 club and job development servces through the Job Service of Florida. These
                 contrcts ar developed an a distrct level to meet specific service delivery needs.

                 Some Prject Independence distrcts contrct, on a local   level, with educational
                 provider/agencies, Le. county school boards or local school distrcts to provide
                 specific servces for parcipants. However, working agreements ar more
                 commonly used.

                 Project Independence works cooperatively with Childrn , Youth and Famy
                 Servces, also an HRS program, to coordinate TItle XX child car services
                 thugh a contract with a centr agency day car provider in each distrct.
 Evaluations:          The Florida Offce of Inspector Genera performed an evaluation which
                 projects that approximately 15 percent of those placed into employment in FY
                 1988 have rejoined AFDC.




 Florida                                           PROGRAM PROFILE
Participation Issues



Participant Descriptors: 
       Approximately 70, 000 registered. 67, 098 paricipated beyond
              registration in FY 1988. The average parcipant is 28 years old , with a tenth
              grade education and two children. The average participant s current spell on
              AFC has lasted 34 months.
Target Groups: 
        Project Independence targets teen parents and volunteers. Target groups
              have fIrst priority in receipt of support services, such as child care , transportation
              training and education.

Mandatory Activities/Sanctions: 
         All AFC applicants and recipients who do not meet
              legal exemptions, together with exempt persons who wish to volunteer, shall be
              referred for Project Independence parcipation by the AFDC Assistance
              Payments Unit. Each person referrd for paricipation must complete orientation.


              From July 1988 to June 1989, Florida imposed 1, 929 sanctions.

Volunteers:          10, 148 exempt AFDC clients have volunteered. The HRS encourages
              voluntar paricipation through presentation of program informationlbenefIts
              durig AFC application process.
Employment Placements: 
         In calendar year 1988, Project Independence placed clients
              into 4,477 par-       tie
                                   (less than 30 hours per week), and 15, 875 full-time jobs.
              (unduplicated count). Typical work is in the service sector with the average wage
              being $3. 96 per hour. 82 percent remain employed after 30 days.




 Florida                                           PROGRAM PROFILE
                                               Figure 1





            PROJECT INDEPENDENCE
                                   Up-Front
                                     Job                 ECUCA TION
                                    Search                - Remedial              Job Club
                                                          - GED
                                   Job Club                                   Extended Job
                                                       LEAs & Councils           Search
                                     JTP AI               Education
                                   Employers                                     Employment
                                                                                 Preparation
                                   HRS/Labor                                     HRS/Labor
      Orientation            YES
                                                                  NO JOB


          Screening                                                                          NO JOB


      HRS Labor                                                       TRAINING
                                                                 - On-Job- Training

                                                                 - Grant Diversion

                                         Assessment &

                                                                 - Work Experience
                                         Employability           - Customized
                                            Plan                      Training
                                          HRS/Labor/             - Vocational
                                           Education                Training
                                                                 - Employment
                                            JTP A                     Prepara tion

                                                               HRS/Educa tion/Labor
                                                                JPT A/Employers/
                                                                County Commision/

                                                                Other Communities





              Developed and produced by the Department of Health and Rehabilitative Services.
              Economic Services, Employment and Training Office with the guidance, contributions.
              and review from Individuals In Project Independence units throughout the
              State of Florida. 1987.





Florida                                             PROGRAM PROFILE
Program Activities

Models:           Florida selects their job club as a model. Please see description in program
                activities section. Florida names job search , the most cost-effective. Job search is
                also described below.

Sequencing:          Figure 1 shows the general sequence of activities for participants in Project
                Independence.

Program Activities Listing: 
      What follows is a listing of the program activities offered by
                Project Independence. Cost and parcipation figures are for FY 1988.




Orientation
Activity:         Orentation and screening is a group activity which explains program services
                the benefits of parcipation , program expectations and the consequences of
                faiure to paricipate. Parcipants complete a State of Florida employment
                application , a referral for subsidized day care, and a form designed to determine
                employment eligibilty as required by the Imgration Reform and Control Act.

                The orientation leader wil schedule the sta of unsupervised job search for the
                job ready and explai how to fill out relevant forms. Not-job ready paricipants
                (except teen parents) who wish to look for work can choose to complete
                unsupervised job search prior to being assessed.

How Provided: 
         Generally, done in a group orientation meeting. Sometimes conducted
                one-on-one if no group is available.

Participants:           67,098.




 Florida                                           PROGRAM PROFILE
Assessment
Activity:          Assessment is an organized way of determining what services, activities and
                 assistance is needed by the paricipant in order to successfully paricipate in
                 Project Independence and to become self-sufficient. The case manager must
                 review the assessment and screening form with the participant to determine
                 whether all the required information is provided.

How Provided: 
         Group or one-on-one. Provided by Project Independence staff, JTPA
                 and Deparment of Education staf.

Participants:           Assessment is provided for the not job ready, job ready but not successful
                                                                        education or training.
                 in job search, . and those needing remediation or furter




Employment Plan Contract

Activity:          The employment plan contract (EPC) specifes the activities and services
                 agreed upon by both the case manager and the paricipant that wil lead toward
                 the parcipant s   self-suffciency. The plan consists of: (1) identification
                 information; (2) background summar of the parcipant s work experience, skills,
                 interests, education and tring background; (3) establishment of an employment
                 goal which is realstic and attanable; (4) development of a plan of action which
                 identifes baners and States how they wil be overcome; (5) follow-up and
                 updating, which are done on a regular basis.

                 This plan is developed jointly by the parcipant and the case worker. Whenever
                 possible the parcipant should take the lead responsibilty for decision making
                 and caring out the activities outlined in the EPC.

How Provided: 
          Done through one-on-one interviews between the case manager and the
                 parcipant. Provided by   Project Independence staff, ITPA , Deparment of
                 Education , and contracted Job Service staff.

 Participants:          This component is especially appropriate for the not job ready, and
                 job-ready who were unsuccessful in job search.




 Florida                                            PROGRAM PROFILE
Supportive Services
Activity:        Support services include, but are not limited, to: child care, transportation
                work and training related expenses, personal counseling, medical services, tuition
                and books.



How Provided: 
                 Supportve services are provided by Project Independence, central child
                care agencies, Medicaid, JTPA, and local education agencies. Services        are
                aranged through discussions between the paricipant and caseworker.

                Participants:        All parcipants receive some supportive services.

Costs:          $213, 123 Federa; $182 318 State; Total $395,441.

Anticipated Changes: 
                Child care and Medicaid wil be extended to 12 months
                post-employment effective Apri 1 , 1990.




 Remedial Education (Basic Education and High School Equivalency)

Activity:                                     incrase proficiency in math and reading, or to
                      Basic instrction designed to
                prepar a parcipant for the high school equivalency exam.

How Provided: 
                 Provided by Deparent of Education, JTPA , community organizations.
                Provided in classroom or more informal groups.

Participants:         Appropriate for clients who have not completed tenth grade and clients
                whose literacy level is below eighth grde.




  Florida                                                PROGRAM PROFILE
Job Club

Activity:          Job club is a workshop and training session to teach paricipants better ways to
                 search for, apply for, and keep ajob. Program staff also provide job leads to
                 participants during the last week of job club when they look for work under the
                 direct supervision of program staff. Job club activities may include: assessment
                 of the paricipant s employability skils, completion of a State of Florida
                 employment application , employability skils and asseniveness training, direction
                 on how to locate job openings and community resources , direction on how to
                 contact employers and get interviews.

How Provided: 
          Done in group sessions. Provided by Project Independence staff
                 contrcted Job Service staf, JTPA, or the Deparment of Education. Generally
                 job club lasts 3 weeks. However, the distrcts have the flexibilty to reduce the
                 timeframe.

Participants:           Of parcular value   for not job ready, and job ready clients unsuccessful in
                 job search.





 Vocational Training


Activity:          Vocational traiing provides parcipants who lack job skills with a classroom
                 training experience which provides practice in skills for a specifc occupation.
                 Training must be full:'time (as defined by the training institution), unless training
                 is combined with another activity. Paricipants must maintain an acceptable level
                 of performance and attendance.

 How Provided: 
          Provided in a classroom settngs by the JTPA , and the Department of
                 Education.

 Participants:          Paricularly useful for not job ready, job ready but needing further training,
                 and volunteers needing training.




  Florida                                           PROGRAM PROFilE
Job Development

Activity:         Locating or developing training and subsidized and unsubsidized jobs for
                participants. Staff research the local labor market and identify trends and
                opportunities; target appropriate employers, work with other State and local
                agencies to develop openings and collect useful information. Staff also assess    the

                skils, abilties and training of participants to present to potential employees.
                They also provide employers with services, encourage them to create jobs for
                clients, and negotiate terms of employment or training contracts.

How Provided: 
          Done by Project Independence staf, contracted Job Service staff, and
                ITPA.

Participants:           These servces are available to clients in any component.




Group Job Search
Activity:         This is an extended job search activity (6 months).

How Provided: 
           The distrcts have a great deal of flexibilty in how they admnister this
                component. , Most often this activity includes 1 week of supervised job search , the
                last week of job club, and regular grup meetings to discuss progress. Provided
                by Project Independence staff, contrcted Job Service staff, ITPA.




  Florida                                          PROGRAM PROFILE
Individual Job Search

Activity:         A 2-week period durng which a paricipant looks for work on their own and
                familiarzes themselves with the local labor market. Employment and training
                staff will be available to assist paricipants in securing employment and will give
                out information on known vacancies. Parcipants must make at least six
                employment applications within a 2-week period.

How Provided: 
         This is a parcipant drven activity. Paricipants are responsible for
                conducting an unsupervised job search. Oversight is provided by Project
                Independence staf, and contracted Job Service staf.

Participants:            Appropriate for job ready parcipants.

Anticipated Changes: 
           Volunteers wil be permtted but not required to parcipate in this
                activity prior to assessment.




On-The-Job Training

Activity:         On- the-job training (On) is designed to help parcipants learn occupational
                skills while receivig wages. Upon satisfactory completion of the training, the
                employer is expected to continue to employ the parcipant without the wage
                subsidy at or above the wage paid to a regular employee in the same or equivalent
                position. Parcipants must be given the same benefits as the company s other
                employees.

How Provided: 
            Vares according to situation. Provided by Project Independence and
                JTA.
Participants:            Parcularly appropriate for clients with little work experience, and clients
                not successful in job search.





 Florida                                            PROGRAM PROFILE
Work Supplementation/Trade


Activity:         Grant diversion (called TRAE)     is a generic term used for an alternative means
                of providing AFDC to participants. The grant, or a portion thereof, is diverted to
                subsidize wages earned by the participant.

How Provided: 
           This component is managed by Project Independence and JTPA staff.

Participants:          Paricularly appropriate for paricipants who are job ready with little or no
                experience or job ready but unsuccessful at finding a job.

Anticipated Changes:             This service wil be restrcted to new jobs in order   to bring it into
                compliance with JOBS.




Community Work Experience Program

Activity:         Employment prepartion in the form of non-paid work experience with a public
                or non- profit agency. The community work experience program (CWEP)
                provides the parcipant the opportunity to develop basic work skils, practice and
                improve existing skills and acquire on- the-job experience. The sponsor of an
                employment preparation assignment assists and encourages qualified paricipants
                to compete for job openings occurg within the sponsor s organization.

How Provided: 
           Vares according to the situation. Done with public and non-profit
                organizations only.

Participants:            Parcularly appropriate for those needing work experience.

Anticipated Changes: 
           Under JOBS, CWEP wil be restrcted to new jobs only.




 Florida                                           PROGRAM PROFILE
Customized Training

Activity:         Training which is short- term (6 months or less) in duration , provides skil
                training for a specific occupation, and is targeted to an employer who has agreed
                prior to the star of training, to hire the paricipant. This is a voluntary activity.

How Provided:              Vares according to the situation. Provided by Project Independence and
                ITPA staff.

Participants:         Most appropriate for job ready parcipants       who have   little experience or
                have been unsuccessful in job search.




Post-Placement Services

Activity:         Eligible for: (1) protective clothing,uniforms, books, fees, licenses, tools,
                limited automobile repai; (2) if funds are available , child care may be continued
                for a period of up to 3 months after entr into employment. Child care assistance
                may be provided thereafter on a sliding fee schedule provided funds are available;
                (3) transporttion services for up to 3 consecutive months; and (4) employment
                counseling by Project Independence staf for 180 days after entr into
                employment.

How Provided: 
         Provided by Project Independence or central child care agency. Services
                are aranged by case manager.

Participants:            Provided to all on an as needed basis.

Anticipated Changes: 
         Post-placement child care and Medicaid support services may be
                provided for up to 12 months effective April I, 1990.




 Florida                                            PROGRAM PROFILE
Case Management
Activity:         Case management includes four major functions which may be performed by
                the case manager or other staff: assessment, development of the employment
                plan contract , aranging and coordinating activities and resources necessary to
                car out the plan , and follow-up to make sure the services and activities were
                provided. Continues through all program components until case is closed.


How Provided: 
         Provided by Project Independence staff, and contracted Job Service staff.
                Done through regular meetings and discussions between case managers and
                parcipants.

Participants:            All Project Independence parcipants receive case management services.




Teen Parent Services

Activity:          This service provides education and/or specialized case management services
                support services, and other services needed to assist the teenage parent to develop
                life management skis requird to achieve self-suffciency and avoid long-term
                welfare dependency. The primar emphasis is on the education needed to attain a
                high school diploma or its equivalent, with a secondar goal of job placement.

How Provided:                                               Deparent of Education , JTPA
                           Provided by: Project Independence,
                and Job Service. Services ar provided in group settings (separate from other
                Project Independence groups) and one-on-one.

Participants:            Appropriate for teen-age parents.

Anticipated Changes: 
         A varety of procedural changes wil     be   made to bring the program
                into compliance with JOBS.




 Florida                                            PROGRAM PROFILE
                                                                           Appendix A




Program Overview Philosophy and Motivation

          Since 1981, Florida has been a national leader in helping people on welfare to
          leave the State  s welfar rolls and enter employment. Early on , the Deparment of
          Health and Rehabiltative Services (HS) established as " goal one " the job of
          helping Florida' s economically dependent citiens to become independent. Those
          welfare recipients who were most work-ready were requird to conduct ajob
          search before they were provided other services. As a result of this and other
          efforts the State was able to curb the grwth in AFC and Food Stamp caseloads.
          Job placements incrased from 3, 750 in 1981 to 22, 379 in 1986. Neverteless,
          too many Floridians, especially the not work-ready who were severely lacking in
          education and job skils, stil faced bleak and unproductive futures.


          In Florida, AFC pays only about 40 percent of the income needed to avoid
          povert. A full- tie job at $4. 00 per hour is over 90 percent of the 1986 povert
          level for a famly of three.

          Clearly, it does. not pay to be on welfare. The dependence on strgers for money
          or foo stamps is a tiesome, demeaning, and distasteful experience. These
          Floridians were stuck in the limbo of povert until more resources could be
          brought to bear on their situatins. In the years from 1981 through 1990 the
          legislatue increased the funding for the welfare to work effort from
          approxiately 3 milion to 30 millon dollars.

          In order to determne what was needed to addrss this problem it was necessar to
          exame the social and economic factors that were impacting on Florida s poor. A
          1986 study provided the following information:


                Although employment had grown , many individuals who had found work
                eared incomes which did not result in self-sufficiency.

                Over 104,00 Florida households were receiving AFC and 228,00 were
                receiving Foo Stamps.

                Counting children and dependents, over 290,000 Floridians were receiving
                their livelihood through AFDC.




Florida                                   OVERVIEW STATEMENT                            A-I
               AFC payments totaed $290 millon in 1986. Add Food Staps              and
               Medicaid, and Florida paid $1. 9    bilion.



               Florida s adult AFC population was 98 percent female, and seventy-one
               percent of all recipients were minorities.

               Sixty percent of all AFC recipients had their first child while stil a
               teenager.

               Sixty-four percent of all Floridians receiving AFDC lacked a high school
               diploma in 1982. Fifty-six percent of the persons engaged in employment
               and training activities lacked a high school diploma in 1987.

               Job- fmding help was available in only 8 of 67 counties in 1981 (serving 45
               percent of the AFC population).


          The complexity and magnitude of povert in Florida represented an opportnity
          to cal for change in our State social welfar policy. We were challenged to make
          a commtment to developing and implementing a public welfare policy and
          progr  that would prevent inter- generational povert, promote independence
          from the welfar   system ,   and strengten the chances for Florida s poor to become
          self-sufcient.

Response to the Challenge
          In addition to incrased fundig, the effort received bi- parsan political support
          in the form of new legislation. Durng the 1987 legislative session , a newly
          elected Governor, Bob Marnez, and our legislators recognized the problems
          facing our State s poor famlies, especially those of women with young children.
          Mter identifying the factors of inadequate education and teenage parnthoo
          obvious contrbutors to welfare dependency, incrased priority was placed on
          educational and traiing services as well as services to teenage welfare recipients
           who had not received a high school diploma. Under the Governor s leadership,
           the Legislature, without opposition in the House or Senate, passed the Florida
          Employment Opportnity Act. This legislative initiative provided afesh and
          sensible approach to the old problem of reformng welfar without spending more
          and more of the tapayers money on transfer payments.

          With the passage of the Florida Employment Opportnity Act and the
          implementation of Prject Independence, HRS enhanced and altered the mission
          of providing income maintenance to one of promoting self-suffciency. Project
          Independence committed Florida to providing employment and training services


Florida                                       OVERVIEW STATEMENT                          A-2
          which would move public assistance recipients from a state of welfare
          dependence to a state of independence. By 1989 job- findig assistance was
          available to 97. 2 percent of all AFC adult recipients.


GOALS AND EXPECTATIONS

          Project Independence represents a commitment to both taxpayers and welfare
          recipients-to curb the growth of welfare caseloads by helping welfare recipients
          become economically self-suffcient through employment. In 1988- 89 more than
          100, 000 Project Independence parcipants were engaged in education, trning
          and employment activities. A total of 34 000 of them secured employment, a 40
          percent incrase over the 1985- 86 period.




Goal for Participants

          Prject Independence    is a commitment to move welfare recipients from
          dependence to independence. The progr design emphasizes development of
          individual employabilty plans which include the necessar training, education
          support services and motivational support to enable even the least job-ready
          parcipants to become permanently self-sufficient through employment. Case
          management is provided to ensure that each parcipant completes appropriate
          activities and receives services necessar to obtain and keep a job.


Goal for Local Communities and Employers
          Prject Independence   is a commtment to the public and private sector to contain
          the growth of welfare expenditus and to provide a previously untapped source
          of manpower for the labor market It is a commtment to the private sector to
          divert welfar checks and provide Federa and State ta credits to employers that
          provide trning and work experience needed by welfar recipients. It is a
          parership with private industres to identify labor and manpower needs and to
          trn welfar   recipients for those jobs.




APPROACH AND ATIITUDE

          The on- going goal of Project Independence is to better manage existing programs
          thugh assessment, coordination, and tageting of resources alady available
          from Federal, State and local sources. As a result, more welfare recipients can
          receive the basic services they require to move quickly toward self-support

          To accomplish this goal, Project Independence drws upon the available resources
           from the Job Training Parnership Act (JTPA), the Deparment of Education



Florida                                     OVERVIEW STATEMENT                              A-3
          To accomplish this goal, Project Independence draws upon the available resources
          from the Job Training Parnership Act (ITPA), the Deparment of Education
          (DOE), local education agencies, the Deparment of Health and Rehabiltative
          Services (HS), and the Deparment of Labor and Employment Security (DLES).
          By coordinating efforts and combining resources , program participants are
          assisted in overcoming barers of poor education , lack of job seeking and
          retention skills, and the absence of marketable job skils. They are provided wi th
          support services such as assistance with transportation , child care and medical
          care, in order to allow their parcipation in employment and training activities.

          Project Independence calls on our public service agencies, educators, providers of
          employment and trning services, and the private business sector to work in full
          parership to provide opportunities for Project Independence paricipants. It
          challenges us to provide education and job skills trning, combined with support
          services, in a manner designed to assist families living in povert to make the
          transition from welfar dependence to economic independence.

WHAT WE HAVE LEARNED THAT OTHER STATES NEED TO KNOW

              Target existing resources to keep costs down.

              Collocate staf from   parcipating agencies.

              Set specific placement goals.

              Require State agencies to emphasize the employment of welfar recipients
              into entr level job openings.

              Use the private sector as a screening mechanism to sort the job-ready from
              the not job-ready, thus focusing limited resources on the least employable.

              Recognize that there are no promotions in welfare.

              Market your progrm to the client, public and employer community based
              upon their individual needs and perceptions.

              Use sanctioning not as a punishment but as a recognition of the need for
              individual responsibilty.




Florida                                    OVERVIEW STATEMENT                               A­
                             Appendix B





Florida   SAMPLE DOCUMENTS           B-1
                    PROJEcr INDEPENDENCE
                    SCREENING AND ASSESSMENT FORM




Section A: lDntiatn au          puttioo Statu
Name                                                                     Soal    Se .
Famly.                                            MII .	                 Dat of Bi?

Addss                                                                    Do you   re fo 1t? 0 Yes                  ONo
                                                                         If ye Cue 	                               How loog?


Phne.	                                                                   How 10 have beD 00


 Yes               Al You?	                                               Yel              Al You?


                      intaUDr        do ca?                                                un grat emOD strss?
                                                   pehe?
                   il or

                   cag for sicliDtate   at ho?                                             havi seve famy prlems cres?
                   trveli more tb 2 hour to get                                            la of  frjob 6 moth or less?

                   livi wbere
         work mo th 30 ho pe we?
                                th     ia DO Pr          In.w                              witbwi frrefuing to pacipate in
                                                                                                Pr IDnc?
         havi trle wi aIoldr?
COMMNTS ON AL "Yes " ANSWERS:




Seoo B: Edat               Tra Wor
  Yes              Have yo    do oy of th folwi?	                          Wh? Whre?
                           Pr
                   pacipate in
                   paci
                              Independ?
                                in
                   pacipat      in JT A?

                   paciJW       in CETA?

                    goe to a Job Clu?
                    ba votiOD
                    aske for wort
                                     tr?
                                     tb       Job Servce?

                    apli    for .   Sta of Florida jo?


 Ar you employed DOW?               Yes   No. If yes, who ia    yo emloyer?

 What ar the last    th    jobs you have held? List the last one fit.


 Job Title?
                                 Employer	                                   Reas you left?
 Monthyear bega?                          Monthyear you left?                  Hour a   week?              Hourly wage/salar?



 Job Title?                                 Employer	                                    Reasn you left?
 Monthyear bega?                          Monthyear you left?	                 Hour a   week?              Hourly wage/salar?

 Job Title?                                  Employer                                    Reas you left?

 Month    ear be                          Month    ear   ou left?              Hou a week?                 Hourl     e/sala

                                                           )'

Ar yo    wo no?	                                                      Do you 80 to scho now?                    yes

If ye wb?	                                                            If yes, wbre?

How may
Wht sk
            ho pe
            do yo have
                      Wek?
                      (ty watrss co
                                           Wag pe ho?
                                                  ch ca,
                                                                      Wh ar you        stuyig?


iD beautcian     op ca regi, us !w             tols, saes,   mehac,   Date bega?                          Copletion da?
oter)?
                                                                       Do you have: high school diploma?                    yes
                                                                                                      OED                   yes

                                                                       Wh ocupation         linss do you have (such as nurin            asistat
                                                                      certcate or beauty lice or       otr)?
How di you leII you      sI (job, wo at ho, hobie.. sted)?
                                                                      Wh is bigbst gre       you have coete?            (CIRCL ONE)
Ho may mOD have yo work in th lu              3   1D?	
                                                                       123            4 ,   6 7 8 9 10 11 12 13 14
Wh ki      of jo do yo    wat?	
                                                                      Do you wa       mo    edn?                      yes
                                                                      If ye wht wo yo li to st?

Sta C: Famy 8D Ch Car
Ma sttu        Siqe                    Mmed                Se           Divor         Wid                How may chidrn?

 Names of cbi       wh    live with you:       Birtes:           Ap:        Whre ar thy du           th day (hoe, schol, day car, oter)?




Wh ty      of   ch car wi ma it polible .for yo to do           uape 8C
                                                                  Wh?
                                                                            ties in   Pr 1D?                           Wht days Hou?
           re1age
           aegb
           frmd

           day ca cete

           8f sc

wo? ye
Do yo    have   fay prlems     th ke you 	
                                  DO If ye   wh In 	                   wo? ye
                                                                       Do yo have my lepl prem           tb may ke
                                                                                                              no If ye wb an
                                                                                                                            yo
                                                                                                                                  1t.

Wh In yo spal            ne betb medca prle?	                          Wh ar yo         cb'      sp ne be 
                        pr?


Nam of you dor?	                                                       Nam of   yo cb' do?
Seon D:      Tration                                                 How do you get fr you hou to the followig placs (wal    ca, bus,
                                                                     bicycle, ride wi SOme, oter)?
 Yes           What do you have?
                                                                                                    relative s bOuse
               vald drver's licens
                                                                                                    frnd' s hous
               own car or other trporttion
                                                                                                    chidrn ' school
               YEAR              MODEL
                                                                                                    gr      store
               ca or    trrttion you can borrw                                                      docs offce/clic
               bicycle you can ride
                                                                                                    AF offce
               sone to give you a ride
               bu sto ne you
                                                                                                    Prec    Ince          offce

                                                                                                    shiq ma

                           ca
               ta sece you 	          ca
                                                                                                    dr stre
COUNSELOR'      SUMY	                                                Next coponent

Did pacipat fih 10t gre?                   yes	                               up frt job searh                assessent

Did parcipa wort 12 of la 36 month?                yes                        job club	                       inroprat parcipant
Job ready:         yes                                                        li     conta
Sup Servce
 Yes	     Sup                                     Re     or   me to prvide

          ch ca

                trrttin

                medca

                deta
                wort clothes

                wort tols



                oter:

Wh ar dion         to   wh YOllive?





 Parcipat s signtu:            Date:	                                 Colors signtu              Date:
            .",.                                                                                                                                                     ..

EXEMPTIONS AND                           DEFERRA FROM PARTICIPATION IN PROJECT INDEPENDENCE
Yo. do aot ...          to     pacipa la, Prje ladepcadeace It 10.
 1. Under qe 16.
 2. Aa 16 to 18 8D in scho fu tie.
 3. Aa      65     01 older.
 4. A parnt or caretaer relative who persaly taes car of a chid under age                                                  the.
 S. A pregnt woma in you                            th
                                   trester of pregncy (6 month or more).
 6. il or    incaitate
 7. Neeed in the          ho
                      to ta ca of a sick or inapacitate persn in your houshold.
 8. Havig to travel more than two hour round trp to and from the Projec Independence acvities.
 9. Livi in an area not seed by Projec Indepndence.
10. Worki 30 or more hour pe week.

           de fr                                         roUcn clrlU aad codldoal
                  p8dpaoa Pr ladepcadeace acdvl.. It theveried.
an      up
Yoa 111 be
           to    tb         real
                                                            Ia
                                                     oat 1D0atl YOII                     ror deCern lDalt be

            de
                        lu 1D0f

 1. Seou
 2.     Em       up
                 di..
            or meta
                                                   alcohol or
                                                      or i1
                                                                dr th prvents work or trg.
                                                                th prvets pacioa
 3.     Se fay                                                                               mo th si month.
 5. 	        re derm
 4. Temporu layoff fr a
        Any oter
                                             jo with a
                                                      to be
                                                                dete ca bac
                                                                px     caus by th
                                                                                       date of DO
                                                                                        emoynt COlIlor fr Prje                         Inndce.
YOUR RlGHTS AND RESPONSIBIL AS A PROJCI INDEPENDENCE PARTICIAN
It 108 8f        eldaer 	
ripts ad rnallbUlea
                             IIrr                   or voluta          pudpat Ia tI. Prje                       ladepcadeace      Pf'       108 Ia.      the   rollowl

                                    Proje IDnce                 in the                                               Tn he on time
 1. To
                            fr
           do each acvit: 8S1itmM tn ynu
                                the Prjec Inepndece offce.
           as for helD whn vou Qee it
                                                           re anv ch...-'I or moblem abt your
                                                                                                         pro
 2. To 

 3. To
    aptmt
                Pr Inpendce
           ca on th           ofce
                     job, yo heth (iDlud hotaaton), your Idsa or pholl
                   date you
                                                                          AS SOON AS YOU CAN to 

                                                                                                                                        numr, 8D you chi 


       re
    or troa De
             to al1e DO aa
 S. 	 To
        Prjec
        have a goo
                   Inre
       be excu fr aav Prec Inoendnce
 4. To 	                                     fr th

                       ofce AS SOON AS YOU CAN, to teU
                                to yo
        OF GOD CAUSE iDud yo have aD
                                         for DO     ao
                                                          abut
                                                Of do od Pr
                                            or th va a deat in
                                                                  of AS SOON AS YOU CAN.
                                                                  tI
                                                      GOD CAUSE. It is imrtt for yo to ca on the
                                                                       ap..-.t
                                                                        i1
                                                                               acvity ifvou have

                                                                                                  lDelce
                                                                                                        Pr


                                                                                                        th            th
                                                                                                                      EXALES
                                                                                                                            re
                                                                                                 yo imat famy, Of yo ID mae a
                                                                                                                                        re
                                                                                                                                   (GOD CAUSE mean that you

        co apar.   or you ca t se
        MAATORY PAR11C1AN: You           beve GOD CAUSE in
                                                                  su
                                                              ne ID                sece)
                                                                                                or to be excu fr aD acvi aupe
                 Pr 1Dnc900    It yo mi a ICltd                                         me
                                                                                         01 acty wi GOD CAUSE, Of if you do'



        tb motbJI pa                                                                                            to pa'. . ela
                                                                                                                          When yo " rai to pc" , you
        you in
                                    CAUSE, th yo have " fai
        pa in aD acvi witht
        AF     Medca aD roo st bets may be            or en 8D
        pote to reive th re of yo bets You al C8 ta pa in
                                                                                       re                           Pr 1Dnd   (prappaye) may be ap     fo at !eut another


        VOWNARY PARTICIAN: 0D                                                  be yo                           of acvi yo an exp to do ea acvi
        -ped to yo It yo wiw wi GOD CAUSE, yo ca
                                                                         you
                                                                  Pr lDac qa aDY withut                               in                     ti you
        wi If yo miSI a aceded me or acvi wiut GOD CAUSE, or if yo do' ta pa in aD acvity
        GOD CAUSE, then yo have " faied to pa'. . Whn yo '. ra to paci" , yo clD ta pa in Prjec
                   ap fOf at le ti ID You AF Med aD Poo Swn be wo DO                     beus                                                              c:
        surt servce
     ofa "




  7. To reive
                 faiur to paci"
  6. To reive help
        De them in or

                re
        tuties to pla
                               in   filo
                                     to
                       helD in findi"" a io. To
                                                   an payi fo
                                                    for or   ac SU edoa
                                                             li a jo.
                                                                         jo Of

                                                                ftlan with wm
                             dier ways toaf jo club.YouYou may bejo I8 torido af
                                                                                       Pm I
                                                                                            tr (su u cb ca trrttioa 8D
                                                                                               Of



                                                                              aD Empoymnt PlaD Co
                                                                                  orentaon You ca do
                                                                                 ca do a
                                                                                                                   u 10l u fu
                                                                                                                    .....-lo to II .
                                                                                                                                                  meca ca) if you

                                                                                                                                   ar avale to pay for thes

                                                                                                                                      iob. You have sever op­
                                                                                                                                                a job se in
                                                                                                                                                         with the bell' 011
        color fr       Pr 1D. Du of                                              yo pa wo
        clu. You CaD do a            jo Marh
                                           any of th aces aued to
                                                to co yo acvi..
                                                                                                                            ya you mus do                   in
        yo COlo aa th
  8. To 	   mak io  aDation
             Pr IDndnf-of.            aa jo 88 8D to re jo ae fo hif'

                                            Pr 	
                                                   whe yo ar                      to do a                                                          by th    da 


        by th
  9. To 


        you ac th jo oa  yo ow 8D
        you se a jo. If yo aly
                                  nI.
                       .ny ...1I8hlft



        you guty of fr you co 101 yo
                                      th jo is
                                      bu yo do' re it, yo
                                                            'nt
                                                       (Let Pr
                                                                8Uit.hll8 Km-

                                                                 CC
                                                             eveD if               t..
                                                                     nft! mm wI yn an!
                                                                                  ad   1M tI

                                                                          8D tb AP ofce mo -­
                                                                          frud If invept f
                                                     co be re to pay ba moy. Yau al co f8C
                                                      have ajob
                                                                       beefts aD you
                                                                                                                     ID
                                                                                                                could be                          aD


 10. To
        petiL)
          keen YO iob wh yo ac it. Do NOT
                       IDce
        CAUSE. Let the Prec
                                                                            qutyo jo or voluy
                                                                       offce mow when aD why you intead to quit a jo
                                                                                                                    re you ho olworewit
                                                                                                                                     you
                                                                                                                                       or
                                                                                                                                         GOD
 II. To uk th Prjec Iandoc
                  su as re of se.. to you ma you do
        th afec YOI
             lOe    su                                       you ca t do or cu yo beu. Yau
                                                             ofce for 	    8 hear.." if vou     tt..-

                                                                                                               ao
                                                                                                                with anY ft eX    th Prie I..d.ndenl:

                                                            th days in whch to reue a c:
                       u . relatve. fren lawy, 01 ot rentave with yo to th hearl if
        ca bri                                                                                                                                            you '!sh
 12. Afr you beai a      edJC.vO' 01
         resipmt to 8Ir cot. A      tr                                 emym acvi. yo
                                                                       re        wi be   pa                      .._ft
                                                                                                               wi have
                                                                                                        if it is             witb di   ra    01   UI8t.
             PROJECT INDEPENDENCE JOB SEARCH REPORT

                                                              Food Stamp Job Searh (Case No.                                          Date
   o AFC        Employment and Training

Name                                                                 Family No.                          Mebe No.           So. Se. No.


INSTRUCTIONS TO PARTICIPANT

                                                                                     7. If you are going to make more than six job applications,
 1. Apply for                  jobs during the next                 weeks.              please use the additional space on the back of this form,
 2. Apply for all jobs your counselor tells you about.                               a. " Failure to participate " includes:

 3, Fill out this form for every job application you make.

 4. Accept a suitable job when it is offered to you. Tell us                             . making less than the required              number of applications
    about the job.                                                                       . giving false information        about job applications
 5. If you do NOT get a job, come to your next scheduled                                 . refusing a suitable job

    appointment. Bring this form with you or bring it in before                          . not completing         this report form

                                                                                         . not returning this form on time

    then.
                                                                                         If you fail to participate without good cause, action may
   I Date I Time I Acivity                                                               be taken to reduce your hosehold' s AFDC grant or food
 6. Call to discuss any problem that may keep you from                                   stamps. So make sure you follow the instructions for
    finishing your job search.                                                           completing this job searh report.

JOB SEARCH
Company Name                                                                      Compa

 Company"s Address

                                                                                  Comp s Adress

 Date You Visited Compan          Type of Job                                     Date You VISte   Copa              Type of Job



 Name of Persn You Contaced
      Compan s      Phone No,                         Na of Pe         You   Cotaed      Coan      Ph    No.




 ResuLt of Visit:                                                                 Result of Visit:

      Application Filed                 Hired for Job                                 Application Filed                   Hired for Job

      Employer Not Hiring               Other:                                        Employer Not Hiring                 Other:


 Company Name                                                                     Co Na

 Compan s Address                                                                 Co' s Adre
 Date You Visited Company         Type of Job                                     Date You    VIS Copa               Type of Job



 Name of Persn You Contacted
     Coan s Phne No.                                 Na of Pers You Cotaced             Copa Ph No.

 Result of Visit:                                                                 Result of Visit:

     Application Filed                  Hired for Job                                 Application Filed                    Hired for Job

     Employer Not Hiring                Other:                                        Employer Not Hiring                  Other:


 Company Name                                                                     Copa Na
  Compan s Address                                                                Co' s Adre
  Date You Visited Company         Type of Job                                     Date You   Viste Cony             Type of Job



  Name of Person You Contacted     Company's    Ph     No.                         Name or    Pe   You Cotacted      Co'       s Phne No.




  Result of Visit:                                                                 Result of Visit:

      Application Filed                  Hired for Job                                 Application Filed                   Hired for Job

      Employer Not Hiring                Other:                                        Employer Not Hiring                 Other:


  HRS-ES Form 4133. Oct 87 (Obsoletes previos editions which may not be usd)
                                              -. - -




        !Na                                                  I Company Name


'=mp s Adress                                                Comp s Adress

Date You Visted   Cony          Type of                      Date You Visite   Compa       Type of Job


Name of Persn You Contacted     Company   Ph           No.   Name of Persn You Contacted   Company"s Phone No.



Result of Visit:                                              Result of Visit:
     Application Filed               Hired for Job                Application Filed              Hired for Job
    Employer Not Hiring              Other:                       Employer Not Hiring            Other:

Company Name                                                 Company Name


Companys Address                                              Company s Address


                                Typ of Jo                     Date You Visited Compan       Type of Job
Date You Visited Company


Na of Pe          You Cotaced   Co' Ph                 No.    Na of Pen You Cota            Company"s Phne No.



Result of Visit:                                              Result of Visit:
    Application Filed                 Hired for Job               Application Filed              Hired for Job
    Employer Not Hiring               Other:                      Employer Not Hiring            Other:

Co Na                                                         Comp

Copan s Address                                               Compan s Adress


Date You   Vised Compan         Type of Job                   Date You   Vis Compa          Type of Job


Na of Pers You Cotacted         Coan        Ph         No.    Na of Pen You Cota            Coan Ph        No.



Result of Visit:                                              Result of Visit:
    APplication Filed   0 Hire for Job                            Application File    0 Hire for Job
    Employer Not Hiring    Other.                                 Employer Not Hiring    Other.

Co Na                                                         Co Na

Co' s Adress                                                  Co'
Da Yo VIS                       Typ 01                        Dale Yo    Vi Co             . Typ of Jo

Na of Pen You                   Co' Ph                 No,    Na of Pe         You          Co' Ph         No.



 Result of Visit:                                             Result of Visit
     Application Filed   0 Hire for Job                              Application Filed   0 Hire for Job
     Employer Not Hiring    Other.                                   Employer Not Hiring    Other.

Co Na                                                         Co Na

 Co' s Adre                                                   Co'
 Da You Vis                     Typ of Jo                     Dale You   Vi Co              Typ of Ja

 Na of Pe         You           Co' Ph                        Na of Fe         You          Co' Ph         No.



 Result of VISit:                                             Result of Visit
      Appliction Filed            0 Hire for Job                     Appliction File          0 Hire for Job
        Employer Not Hiring           Other.                     0 Emplye No Hiring               Other.
               PROJECT INDEPENDENCE EMPLOYMENT PLAN CONTRACT
INSTRUCTIONS TO PARTICIPANT: This employment      plan contract is your agreement to move toward independence through
gainful employment. You and your counselor complete this agreement together. You wil develop a definite plan of action and
definite dates to do each action. Call on your counselor to talk about your successes and problems in each step.
Section A -     IDENTIFICATION                                                                Soc. Sec. No.
     Name:                                                                                     Date of Birth
     Mailing                                                                                    Phone Number
     Address:                                                                                       D MANDATORY               D VOLUNTARY

Section B -   BACKGROUND: Review the " Screening and                             Section C - EMPLOYMENT GOAL: Write an employment
Assessment Form (HRS- ES 4139)" , and summarize the                              goal which matches background in training and education,
following information. Use key words and short phrases.                          past job experience and skills, job interests, and job market.
Past training, education, licenses:

Past job experience, skils, interests:


Section D - PLAN OF ACTION:

Step 1: Check the barriers to employment/training/self-sufficiency:
     low job skils                   low/no job experience
                                     training
                                                                                      job club-
                                                                                      legal
                                                                                  Step 2: Check the type of activity that wil remove the barrier(s):

                                                                                                                     educational assessment
                                                                                                                     vocational assessment
     job attached (laid off)
     migrant (seasonal)              health/physical                                  child care                     remedial education
     education
     life skils                      emotional                                        transportation
                                                                                      clothes/tools
                                                                                                                      GED/high school

     housing
     child care
                -                    tools
                                     legal                                            medical
                                                                                      dental  -  -
                                                                                                on-
                                                                                                                      vocational training
                                                                                                                      customized training

     clothing
     other:
                                     transportation
                                                                                      housing
                                                                                      counseling
                                                                                                 -                       the-job training
                                                                                                                      work experience
                                                                                                                      employment preparation
                                                                                      job searh
                                                                                      referral to VA, JTA, CYF
                                                                                      other:

 Step . & In the space below ,describe each barrier in detail, how each barrier wil be removed, beginning and ending dates, how the case
         manager will follow-up to make sure the barrier is removed and how often and when the follow-up wil occur,
          Barrier                     How wil the barrier be removed                 Bein Date End Date     Follow-uo/how often/when




                                 (If needed, attach a second page in this same format.)

                                                            Date Signed          Conselor's Signature                                 Date Signed

 I Participant's Signature
Employment Interview
Name of Applicant                                                                      Date

     General Interview    CJ Position Interview Job Title
This is:       1st Interview        2nd Intervie         3rd Interview


Interviewer                                                                            Titlc

Department    Dira/9.s: sigat1                                                         Titlc


As a result of your interview , check the most appropriate box in each category.      ditional comments section on back if needc(

1. EXPERIENCE	                                                                 SCRE                  COMMENTS
   o Applicat's background not relevant to job requirment.
  o Applicant's background somewhat relevant tojob          reuiments.
        Acceptable background and experience.

        Strong background and experience.

        Excellent experience and background.

2. JOB KNOWLEDGE	                                                              SCRE                  COMMENTS
        None pertaining to this position.
        Considerable   trnig required.
   D Basic, but capable of     leg    on the job.

        Very capable; little trning neeed.

        Extremely well vers; able to handle .position without traing.


3. INFORMATION ABOUT GENERAL WORK FIELD                                        SCRE                  COMMENTS
      Poor famliarty of field
        Fair familiaty of field.

        Knows field at level of average applicant.

   c: Knowledgeable; knows more th          average applicat.
   r: Has excellent understanding of the field.
4. COMMUNICATION          SKI                                                  SCRE                  COMME.NTS
        Talks very little; communcation poor.
        Attempts communication but does fair job at bet.
        Acceptable fluency and communcation.
        Speaks well and to the point.

        Excellent communication; extremely flucnt.


s. lNlTtA TIVE                                                              SCRE                     COMMENTS
        Appear to depend on others too much; has poorly dermed goal.
   c:   Scts goal too low and seeks little reponsibilty.
   c.   Appe:u to have average goal; sometimes makes suggestions.
   CJ Appea to strive to succd; self starer.



   CREATIVITY
   CJ Appear to set high standards and displays excellent degre of initiative.


   c. Show little abilty . thnk creatively.
                                                                               SCRE                  COMMENTS

   c. Appear to have few new ideasl concepts.
   c. Appear to have accptable creative talents.
   c. L	oks for altcrnatives; lies developing new method   systcl1.
   c. High creative thought proces; constantly suggesting new  idea.
7. MOTIVATION                                                        SCRE              COMMENTS
   c: No interest. apathetic. indifereDL
   c: Questionable interet in position.
   I: True desire to work.
   t: Solid interest in position and ask questions.

   CJ Excellent motivation. desire to work; asks. many questions.

                                                                         SCORE         COMMENTS

8. PERSONALITY TRAITS (an individual's personal suitabilty to the job)
      Unsatisfactory for this job! position.

      Doubtful for this jobl position.

      Satisfactory for this job! organiztion.

      Very good for this job! organiztion.

      Excellent for this job! organization.

                                                                     SCRE              COMMENTS
9. COMPOSURE
   I: Nervous. "fidgety " and il at
      Straed; is easily irtated.

                                      ease.


        Average composure.

   r: Positive; appea to handle cries better than'  the average.
   r: Exceptionaly well compose; appe to thrive under presure.
10. APPEARANCE (if relevant)                                         SCRE              COMMENTS
   r:   Very untidy.
   r: Cales about personal appearance.

   r:
   r: Acceptable personal appearance.
      Better than average appeace.
   I: Very well groomed; very neaL
11. OVERALL                                                  'lAL SCRE                 COMMENTS
   CD Unsatisfacol:.     -
   (Z Below standard:- 1. 5
   CD
                             1. 4
                           - 2-4
        Acceptable. - 2. 5 - 3-4
                                              'lAL SCRE                          PE      OFFICE USE ONY

                                              DIVIDED BY 10
   CD   Above average.         5 - 4.
                                                                                 DAV
   CS Outstanding.       - 4. 5 - 5


  STRONGEST POINTS



  m:AKEST B(jIHTS




  RECOMMENDED FOR HIRING?                     YES

  ADDITIONAL COMMENTS





 *PLEASE RETURN THIS FORM TO THE PERSONNEL OFFICE AFTER INTERVIEWS. *

 PROJECT INDEPENDENCE                  PROJECT INDEPENDENCE.

                                        AN INNOVATIVE PUBLICI

IS FOR YOU AND YOUR                      PRIVATE PARTNERSHIP
FAMILY
                                                 Governor Bob Martincz
    Finding and keeping the
                                                                                lId
kind of job you want to have for a              Dcpartmcnt of Ilc..lth
                                                  Rchahilitativc Scrviccs

long time can be hard. Project In­             Secrct..ry Grcgory l. Coler
dependence has help for you,                    Dcp..rtmcnt of I.Ihor and

and that help won t stop    until
                Employmcnt Sccurity
                                                Sccrctary Ilugo Mcncndcl
you re comfortable with     your

                                                                         Educ..tion

new job.                                         Dcpartmcnt of
                                               Commissioncr Bctty CasiOr

    Project Independence is for
               already helped thou­            State Job Training Ctx)rdimlting

real. It has                                               Council

sands of Floridians just like you               Chaim1aJ1 Willm ' dc la Siemi

to find and keep good jobs... the
kinds of jobs that help make a                           Local Contm;t:

better life for them and for their
families.
    Project Independence can do
the same thing for you and your
 family. Talk to the people at Proj­
 ect Independence today . Tell
 them about your concerns and
 worries. Let them show how
 Project Independence can help
 you find a better way... a better           TRADING WELFARE CHECKS
 life for you and your family.                    FOR PAYCHECKS
                                       This publication was produce at a cost             of
                                       $10,745.00   or 50. 09     per copy, under contract
                                       MF814 with Public Communications Inc. to
                                       market Project Independence to Aorida public aid
                                       recipients. H RS complies with the state and federal
                                       nondiscrimination policies relating to race, sex , age
                                       and handicapping condition.
                                                               ..''''      .-- . -.
                                                                           , ,." ,,,   ..                               ~~~
                                                                                                                         -- - ': ,
                                                                                                                              ;;..-!" ..,
                                                                                                                            .'--               , ,., , ."~~~~~.. ,. . ("'? - .
                                                                                                                                            ..,-..
     PROJECT                                                   PROJECT INDEPENDENCE
     INDEPENDENCE                                              IS FOR REAL
                                                            Project Independence has already helped thousands in Florida
       Project Independence can help you find a
goo job. You have th desire to work , but there        find good jobs. These people have worked hard to make a better life
may be things geuing in the way. Prper car for         for themselves and their families. Here s what a few of them have to
your childrn while you re at work ... a way to get
to work on time every day... heath car for you and
                                                       say about Project Independence and the way their lives are today:
you family... a high school diploma... or the skills
you nee for the kid of job you want.
           s hard to even think about finding ajob
when you re wonying about some of those thgs.
       ect Independence can
help you with all of these. If
you need help, Project Inde­
pendence can help you with:
                                                        I foud a goo job. You can too!"

          * Child Care                                  Kathy Andersn, Certified Nursing Assistat

          * Uniforms and tools
          * A ride to and from work or
            training
          * Medical care
                                                                                                                                                    ol""
          * High school diploma or                                                                   " It feeis so good to ' be ' working! "
                                                                                                      Maria Jones, Cashier
          * Job skils training

     Project Independence can help you find a
job that you ll be proud to have today and
tomorrow. The help you need to find and keep
that job is available through Project Independ­
                                                       .;1
                                                       t Jl




                                                               AI" Y'. w
ence. You want a better life for yourself and           Project Independence gave me a new life.
your family. Project Independence can help.              Bil Richardson, Offce Worker

PROJECT
                                 PROJECT INDEPENDENCE­

                                          AN INNOVATIVE PUBLICI

INDEPENDENCE
                               PRIVATE PARTNERSHIP
                                                     Governor Bob Martinez
  Project Independence is a state­
                                                 Department of Health and

wide job placement program that                    Rehabilitative Services

emphasizes training and other sup­               Secretary Gregory L. Coler

port selVices to help public assistace            Department of Labor and

reipients seur jobs and beme self­                 Employment Security

                                                 Secretary Hugo Menendez

sufcient. It is an inovative progr
                                                     Department of Education

created by Governor Bob Martinez                 Commissioner Betty Castor
that blends the resources of the De­
                                                State Job Tmining Coordinating

partment of Health and Rehabilita­                         Council

tive SelVices, Department of Labor               Chainnan Wiliam de la Sierr

and Employment Security and De-
parent of Education as well as Aor-                       Local Contact:

ida s business community and the
sta Prvat Industr Council (PIC).
By 1991 Project Independence will
help more than 100 000 people de­
clare their individual independence
through full time employment, sav­
ing taxpayers many millions of dol­
lars in future welfare costs.
                                         This publication was produce at a cot of 53, 275
                                         or SO. 33per copy, under contract MF814 with
                                         Public Communications Inc. to market Project
                                         Independence to the Florida busines community.
                                         HRS complies with the state and federal nondis­
                                         crimination policies relating to race, sex , age and
                                         handicapping condition. .
   rTOM                                            TRADE WELFARE FOR
                                                   WORK (TRADE)
LINE                                                    Many Project Independence partici­

                                                   pants volunteer to participate in TRADE , a

BENEFITS                                           reimbursement process that converts wel­

                                                   fare checks into paychecks. The AFDC

                                                   check, which nonnally goes directly to the

FOR FLORIDA                                        Project Independence participants, is of­

                                                   fered to you as the employer to offset the

BUSINESSES                                         cost of labor incurred while th
                                                   lears the
                                                                                     paricipant

                                                                 job. The reimbursement amount

                                                   is $1.10 per hour.
     Florida businesses that be­

come partners of Project Inde­
pendence can benefit in a vari­
ety of ways:
                                                                                                      STATE TAX CREDITS
CUSTOMIZED TRAINING
                                                                                       The Enterprise Zone (EZ) Tax Credit
     Project Independence staff wil work                                                              progr allows businses to reive creits
closely with you as the employer to develop                                                           eithr their Florida corprate income taes or
short- tenn training programs tailor made for                                                         thir Florida State sales taes when they hir
your specific jobs.                                                                                   eligible Prject Independence   paicipants.
ON- THE- JOB- TRAINING
    On- The- Job- Training gives Project Inde­     TAX CREDITS                                        BECOME A PROJECT
pendence participants the opportunity to                Florida business partners of Project Inde­

learn skils they need for your jobs while
earning wages to support their familes. 
         pendence can benefit from federal and state tax     INDEPENDENCE
the employer, you provide training and pay        credits:                                            PARTNER TODAY
wages. In return , Project Independence can                                                                Businesses large and small throughout

reimburse you for a portion of the wages you      FEDERAL TAX CREDITS                                 Florida have already become partners of
have paid. Project Independence participants            The Targeted Jobs Tax Credit 
   (TJTC)       Project Independence. They recognize how
are expected to work full- time and be pro­       progra provides your business with federal income   this program meets their needs, appreciate
vided the same tenns of employment, insur­        tax creits for wages you have paid to eligible      its ease and simplicity of operation, and
ance coverage ,   working conditions, fringe      Prjet Independence paricipants. This creit          enjoy its many benefits.
benefits, etc., that your business offers other   applies to wages paid for up to one year frm the          Project Independence. . . it s good for
employees.                                        date of hir.                                        Florida.
                                                                                                        FOR MORE INFpRMATJON,
                                      CONTAyT YOUR LocAL PROJECT INDEPENDENCE REPRESENTATIVE
                                                         TOIJ, FRftE /JUSINESS IIOTLINE: 800- 446- 8400
                                                    OR CALL TIlE
